Audit of Raytheon Polar Services Company’s Costs
Claimed For Fiscal Years 2003 to 2004




                                   September 29, 2006
                                        OIG-06-1-023




                             National Science Foundation
                              Office of Inspector General
                                   EXECUTIVE SUMMARY



                                         BACKGROUND


        The attached Defense Contract A udit Agency (DCAA) Audit Reports dated
September 25, 2006 and Septem ber 26, 2006, detail the results of its audit of $300.7
million in c osts claim ed f or payment by Ra ytheon Polar Services Co mpany (RPSC)
under NSF Contract No. OPP-0000373 from          January 1, 2003 throug h Decem ber 31,
2004. The contract consists of a five-year base period and fi ve option periods for a total
of ten years and valued at $1.1 billion. The charges claimed against the contract averages
at                            . The attached audit reports include RPSC’s response to the
audit findings.

        The United States Antarctic Program has, since 1971 when NSF assum            ed full
responsibility, provided a perm anent presence in Antarctica that oversees U.S. scientific
interests. T oday, the p rincipal goa ls of the United Sta tes A ntarctic Pro gram are to (1)
understand the Antarctic region and its ecosyst ems, (2) understand the effects of the
region on global processes such as clim ate, as well as responses to t hose effects, and (3)
use the region as a platform to study the upper atmosphere and space.

       RPSC, headquartered in Centennial, Colo rado, is a business unit of the Raytheon
Technical Services Company. RPSC is under contract with NSF to provide science,
operations, and maintenance support to sustain year-round research programs.

         We previously provided DACS, on Octobe r 14, 2005, the results of the audit of
RPSC’s 2000-2002 incurred cost proposals that questioned $33.4 million of $363 million
total claimed costs by RPSC 1. The contract consists of a five-year base period and five
option periods for a total of ten years and is valued at $1.1 b illion. The charges claime d
against the contract av erage                            . The attached reports provide the
results of DCAA’s audits of RPSC’s incurred cost proposal submissions for FY 2003 and
2004.


                      OBJECTIVES, SCOPE, AND METHODOLOGY


       The Federal Acquisition Regulation (FAR ) requires governm ent contractors to
submit annually a year-end final accounting of the costs incurred by the contractor in
performing the work of the contract. At th e request of NSF, we contracted with DCAA


1
    NSF OIG Audit Report OIG-05-1-005 dated March 31, 2005 and amended October 14, 2005.
to audit the              of costs claimed by RPSC in performance of the NSF contract
from January 1, 2003 through December 31, 2004.

      The purpose of auditing the costs was to determine whether the costs claimed by
RPSC for the period were allowable, allocable, and reasonable in accordance with the
FAR and NSF’s contract requirements.

       The DCAA audit was conducted in accordan ce with the Com ptroller General’s
Generally Accepted Government Audit Standards and included such tests of accounting
records and other audit procedures necessary to fully address the audit objectives.


                                         AUDIT RESULTS


        DCAA identified questioned costs amounting to                    , or           , of
the total                 that RPSC claimed for payment for Fiscal Years 2003 and 2004.
Of the questioned amount,                    represents costs that RPSC charged incorrectly
to NSF as di rect costs when those costs should have been classified as indirect costs and
recovered through RPSC’s indirect cost rate s or exceed ed the cont ract indirect cost
ceiling amounts. The re maining $1.5 m illion represents improperly ch arged direct costs
for alcohol, gifts, and souvenirs and fringe benefit costs.

                    Costs Questioned by Year of Contract Performance

                  Description                 FY 2003            FY 2004              Total
         Overhead Indirect Costs
         Improperly Claimed Over
         Contract Allowed Ceilings

         General and Administrative
         Indirect Costs Improperly
         Claimed Over Contract
         Allowed Ceilings

         Fringe Benefits

         Direct Costs

         Total


      Specifically, RPSC has standard p rocedures for class ifying costs as Overhead or
General and Adm inistrative. 2 Overhead is a co st for th e managem ent of direct lab or,

2
  Detailed information concerning RPSC’s indirect versus direct cost classification procedures is contained
in “Raytheon Polar Services Company’s Indirect and Other Direct Costs Internal Controls,” NSF OIG
Audit Report No. 06-1-004, issued March 27, 2006.

                                                    2
subcontractors, and direct m aterials used on the contract. Gene ral and Adm inistrative
costs are costs th at R aytheon incurs for th e general m anagement and benefit of the
corporation as a whole.
                             . The FAR requires that contractors of RPSC’s size disclose
to the federal governm ent detailed definitions of the kinds of costs that it considers to be
Overhead and General and Adm inistrative costs. Upon approval of the disclosed
definitions by the gov ernment, RPSC agr ees to only bill th e governm ent for costs
according to the disc losed definitions. Howe ver, in th e claim s sub mitted to N SF for
payment, RPSC did not f ollow its disclos ed def initions f or billing indire ct c osts.3
Instead, RPSC improperly classified and claimed                   of indirect costs as direct
costs. In addition, when NSF awarded RPSC the contract, RPSC agreed to limit its claim
for Overhead and General and Adm inistrative costs to cer tain prescribed ceilings.4 The
annual Overhead limitation is an amount not to exceed                        of the contract’s
direct labor amount. The a nnual General and A dministrative limitation is an am ount not
to exceed                  of all the costs of the contract
                 .

        Prior to co nsidering th e m isclassification of $ 18.1 m illion of direct costs as
indirect costs, DCAA identified                  of i ndirect costs claim ed by RPSC that are
over the co ntract indirect cost ceili ng lim itations. DCAA rem oved t he im properly
classified               of indirect costs from RPSC’s direct cost base, placed them in the
correct Overhead or General and Adm inistrative indirect cost pool, and then recalculated
the correct indirect cost am ounts using th e NSF contract ceiling percentages. The
recalculation increases the am ount of indirect costs over ce iling that RP SC cannot claim
from                                   and is therefore questioned as shown in the schedule
above.

        In addition,          of Fringe Benefit cost s are question ed in FY 2003 because
RPSC claimed budgeted fringe cost s instead of the lower, aud ited fringe costs. Although
RPSC did not know what the eventual audite d fringe cost am ount would be at the tim e
the claim was prepared, it is nevertheless only entitled to the audited amount. The audit
of the FY 2004 fringe benefit costs is still underway.

        Finally, an additional $1.37 million is questioned for expressly unallowable costs,
such as gifts, entertainment, and alcohol. 5 RPSC is classifying and charging these c osts
to the NSF contract as allowable “other m aterial costs.” Instead, RPSC should charge

3
  Detailed information concerning RPSC’s failure to follow disclosed accounting practices is contained in
“Raytheon Polar Services Company’s Failure to File Required Cost Accounting Disclosure Statement,”
NSF OIG Audit Report No. 06-1-011, issued July 6, 2006 and “Audit of Raytheon Polar Services
Company’s Noncompliance with Cost Accounting Standard 418 -Allocation of Direct and Indirect Costs
For Fiscal Years 2000 to 2002,” NSF OIG Audit Report No. OIG-06-1-001, issued March 21, 2006.
4
  Detailed information concerning RPSC’s billings and contract ceiling limitations is contained in “RTSC
Polar Services Billing System Internal Controls,” NSF OIG Audit Report No. 06-1-012, issued July 10,
2006.
5
  Detailed information concerning RPSC’s expressly unallowable costs is contained in “Raytheon Polar
Services Company-New Zealand Accounting System and Floor Check Reviews,” NSF OIG Audit Report
No. 06-1-017, issued September 29, 2006.

                                                    3
these costs to an unallowabl e cost account. According to RPSC, these item s are for
resale in Antarc tic station facilities such as the s tore or ba r, and are also being provided
as bingo prizes. RPSC-NZ also stated that          the revenue generate d from these resale
activities is properly credited to NSF on its qua rterly expenditure reports. Accordin gly,
RPSC’s only purpose for charging these cost s to the NSF contract was for RPSC t              o
receive a fee for supplying the alcoholic        beverages. However, under FAR 31.205,
expressly unallowable costs must be segregated from otherwise billable contract costs.

        Consistent with the recommendations we m ade in our RPSC FY 2000-2002
claimed costs audit, we conti nue to recommend that NSF c oordinate with and allow the
Defense Contract Management Agency, the cogni zant federal agency, to take the lead in
resolving disclosed accounting practice defi        ciencies pr ior to en tering into a f inal
negotiation settlement to resolve the questioned                         of indirect costs. NSF
should resolve the rem aining $1.5 million of questioned costs. In addition, NSF should
ensure that RPSC establishes ade quate pol icies and pro cedures to preclud e ch arges
exceeding its Overhead and General and Adm inistrative ceiling s; e nsure tha t RPSC
establishes adequate policies and procedures to routinely adjust the amount of its claimed
costs to r eflect a ctual r ather than bu dgeted fringe benef it co sts; and ens ure th at RP SC
establishes adequate po licies and pr ocedures to m aintain adequate docu mentation of all
its claimed costs in accordance with the FAR. Implementation of these recommendations
will allow RPSC to report its costs correctly to NSF and provide adequate suppo rting
documentation.

        In its respo nse to th e d raft of this report, RPSC did not agree with th e DCAA
questioned indirect costs. RPSC contended that the costs are in accordance with intent of
the con tract and/or ins tructions received from NSF. However, RPSC was unable to
provide the DCAA auditors with docum entation of the NSF instruc tions. The DCAA
auditors con tacted th e NSF Contracting Officer , who stated that no in structions wer e
provided to RPSC by NSF aut horizing any deviation from RPSC’s disclosed accounting
practices. In addition, RPSC be lieves the alcohol, gift, and s ouvenir costs should be paid
by NSF as direct costs of contract perform ance. Nevertheless, RPSC did agree with the
DCAA auditor concerning questioned fringe benefit costs in FY 2003. The DCAA
auditors after consideration of RPSC’s response did not re vise their audit findings and
recommendations.




                                               4
                                                                  APPENDIX




             Defense Contract Audit Agency Audit Reports


DCAA Audit Report No. 6161-2003P10100201-RTSC Polar FY 2003 Incurred Cost
  Audit, dated September 25, 2006.
DCAA Audit Report No. 6161-2004P10100201-RTSC Polar FY 2004 Incurred Cost
  Audit, dated September 26, 2006.



                                Performed By
                            Herndon Branch Office
                               Reston, Virginia




                                      5
             DEFENSE CONTRACT AUDIT AGENCY

             AUDIT REPORT NO. 6161–2003P10100201

                                                      September 25, 2006

PREPARED FOR: National Science Foundation
              ATTN: Ms. Deborah Cureton
              Associate Inspector General for Audit
              4201 Wilson Boulevard
              Arlington, VA 22230

PREPARED BY:      DCAA Herndon Branch Office
                  171 Elden Street, Suite 305
                  Herndon, VA 20170
                      Telephone No.
                      FAX No.
E-m                       ail Address

SUBJECT:          Raytheon Polar Services FY 2003 Incurred Cost Audit

REFERENCES:       Prime Contract No. OPP-0000373

CONTRACTOR:       Raytheon Polar Services
                  Raytheon Technical Services Company
                  12160 Sunrise Valley Drive
                  Reston, VA 20191

REPORT RELEASE RESTRICTIONS: See Page 53
                                                                           Page
CONTENTS:          Subject of Audit                                          1
Executive                     Summary                                        1
                   Scope of Audit                                            2
                   Results of Audit                                          3
                   Contractor Organization and Systems                      37
                   DCAA Personnel and Report Authorization                  52
                   Audit Report Distribution and Restrictions               53
Appendices                                                                  54
Audit Report No. 6161-2003P10100201

                                     SUBJECT OF AUDIT

        We examined the Raytheon Technical Services Company (RTSC) certified final indirect
cost rate proposal dated October 13, 2004 and related books and records for the reimbursement
of Polar Services FY 2003 incurred costs. The purpose of the examination was to determine
allowability of direct and indirect costs and recommend Contracting Officer-determined indirect
cost rates for FY 2003. The proposed rates apply to prime contract OPP-0000373. A copy of
RTSC Certificate of Final Indirect Costs, dated October 13, 2004 is included as Appendix 1 to
this report.

       The incurred cost proposal is the responsibility of the contractor. Our responsibility is to
express an opinion based on our examination.


                                   EXECUTIVE SUMMARY

       Our examination of the $142.5 million proposal related to Polar Services contract
disclosed significant questioned costs, including the following significant items:

             Treatment of Indirect Functions
             Reclassified Corporate and RTSC Allocations
             Expressly Unallowable Costs                                        603,887
             RPSC Share of Questioned Allocations
             G&A Pool Questioned Costs
             Fringe Benefits

SIGNIFICANT ISSUES:

   1. We questioned                 related to the application of audited RTSC fringe rates as
      opposed to the contractor’s claimed rates to the applicable fringe codes for Polar
      Services.

   2. RTSC Audit Report No. 6161-2003T10100001 disclosed unallowable costs (based on
      FAR 31.205-14) within the RTSC General Management expenses, RTSC Legal, RTSC
      State Income Tax, and RTSC Restructuring. Raytheon Polar Services Company portion
      of the RTSC questioned costs from Audit Report No. 2003T10100001 is         .

   3. We identified                of overhead costs in excess of the contract ceiling. The
      overhead rates were recalculated and compared to the claimed rates to determine the
      amounts in excess of the      contract ceiling rate.
Audit Report No. 6161-2003P10100201

   4. We identified              of G&A costs in excess of the contract ceiling. The G&A rates
      were recalculated and compared to the claimed rates to determine the amounts in excess
      of the      contract ceiling rate.

   5. We questioned $603,887 as a result of alcoholic beverages, T-shirts, ornaments, hats,
      bobble heads, and glasses booked as material costs for FY 2003.

   6. We reclassified                  of ODC and $1,468,272 of labor costs related to
                                                                                 .

   7. We reclassified $3,463,706 of Corporate and RTSC allocations that were changed direct
      to the contract as Other Direct Costs (ODC).

   8. We questioned               of RPSC allocations based on the Raytheon Corporate and
      RTSC assessments audit results (Audit Assignment No. 6161-2005T10160208).


                                      SCOPE OF AUDIT

       Except for the qualifications discussed below, we conducted our examination in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the examination to obtain reasonable assurance about whether the data and
records evaluated are free of material misstatement. An examination includes:

       •   evaluating the contractor's internal controls, assessing control risk, and determining
           the extent of audit testing needed based on the control risk assessment;
       •   examining, on a test basis, evidence supporting the amounts and disclosures in the
           data and records evaluated;
       •   assessing the accounting principles used and significant estimates made by the
           contractor;
       •   evaluating the overall data and records presentation; and
       •   determining the need for technical specialist assistance

       We evaluated the incurred cost proposal using the applicable requirements contained in
the:

       •   Federal Acquisition Regulation, and
       •   Cost Accounting Standards.



                                                 2
Audit Report No. 6161-2003P10100201

        For FY 2003, we considered RTSC accounting system to be inadequate in part for
accumulating, reporting, and billing costs on Government contracts. As described in the
Contractor Organization and Systems section of this report our examination of RTSC internal
controls with respect to integrity and ethical values identified significant deficiencies which
could have a material impact on the contractor’s submission. The scope of our examination
reflects the risk of unallowable costs being included in the submission and includes expanded
testing to provide a reasonable basis for our opinion.

        In addition, Raytheon Polar Services uses the Polar Operations Financial Management
System (POFMS) to organize costs from the SAP accounting system and then bill the cost direct
to the National Science Foundation. We have not reviewed POFMS or deemed the system
adequate.

QUALIFICATIONS:

        An analysis of available documentation in the contractor’s files applicable to proposed
subcontract costs showed that an evaluation by another DCAA office is needed to reach a
definitive conclusion regarding the acceptability of the proposed subcontract costs. We
requested an agreed upon procedures evaluation from a DCAA office cognizant of the selected
subcontract. However, we did not receive the results in time for incorporation into this report.
The results of the agreed upon procedures evaluation is considered essential to the conclusion of
this examination. Therefore, the audit results are qualified to the extent that additional costs may
be questioned based on the results of the agreed upon procedures evaluation.

        On November 22, 2005, we sent a request to the DCAA Gulf Coast Branch Office to
apply agreed upon procedures to Edison Chouest Offshore Inc. CY 2003 invoices to Raytheon
Polar Services under Subcontract No. 4500098096 and Subcontract 4500098100. Upon receipt
of the agreed upon procedures evaluation, we will provide a supplemental report if the assist
audit include significant questioned costs.




                                     RESULTS OF AUDIT
                                                 3
Audit Report No. 6161-2003P10100201


AUDITOR’S OPINION:

       a.      Indirect Rates. In our opinion, the contractor’s proposed indirect rates are not
acceptable as proposed. The examination results and recommendations are presented in the
Exhibit B of this report.

       b.       Direct Costs. In our opinion, except for the unresolved costs in the amount of
             , the contractor’s claimed direct costs are acceptable as adjusted by our examination.
We questioned and/or reclassified                of direct costs proposed under the Polar Services
contract. Questioned and/or reclassified direct costs by element are presented in Exhibit A, of
this report. Direct costs not questioned are provisionally approved pending final acceptance.
Final acceptance of amounts proposed under the Polar Services contract does not take place until
performance under the contract is completed and accepted by the cognizant authorities and the
audit responsibilities have been completed.

       A schedule of the claimed and audited overhead and G&A costs in excess of the
contractor’s ceiling rates is included in Exhibit D of this report.

        We discussed the results of our examination with
in an exit conference held on July 20, 2006. RPSC did not concur with our questioned costs.
See Appendix 2 of this report for the contractor’s response to our questioned costs.




                                                 4
Audit Report No. 6161-2003P10100201                                        EXHIBIT A

             STATEMENT OF CONTRACTOR’S CLAIMED DIRECT COSTS
                             AND RESULTS OF AUDIT
           RAYTHEON POLAR SERVICES CONTRACT NUMBER OPP-0000373
                  Period January 1, 2003 through December 31, 2003

Cost Element                Claimed           Questioned       Unresolved              Ref.
Direct Labor                                                     $        0         Schedule A-
                                                                                         1
Material                                   603,887                                  Schedule A-
                                                                                         2
Subcontracts                                                                        Schedule A-
                                                                                         3
Other Direct Costs                                             ___________          Schedule A-
                                                                                         4

Totals

        The claimed cost column represents amounts included in the contractor’s certified
indirect cost submission for the Polar Services contract. This column does not necessarily
represent amounts that the contractor plans to claim for reimbursement under the contract.

         Minor differences may exist in the supporting schedules due to rounding.




                                                5
Audit Report No. 6161-2003P10100201                                       SCHEDULE A-1

                           RPSC FY 2003 DIRECT LABOR COSTS
                                AND RESULTS OF AUDIT

                                    Claimed
           Cost Element              Cost          Questioned Cost            Ref.

           Direct Labor                                                     Note 1

EXPLANATORY NOTE:

1.    Direct Labor

      a.        Summary of Conclusions:

              We reclassified                 of the contractor’s claimed direct labor associated
      with various indirect functions to the overhead pool based on its disclosed accounting
      practices.

      b.        Basis of Contractor’s Cost:

             The contractor’s claimed labor costs are based on actual costs incurred as
      represented in its accounting books and records.

      c.        Audit Evaluation:

             The contractor recorded               as direct labor for those labor costs
      associated with the indirect functions of Facility, Finance and Human Resources using
      the General Management WBS.

              We could not locate facilities costs for the Colorado office which is the primary
      location for the Polar support functions. It was determined that a separate direct
      accumulation point for the facilities costs was developed. Upon further analysis, it was
      determined that the majority of the costs contained within the facilities WBS were solely
      for the facilities located at 7400 South Tucson Way, Centennial, Colorado 20191.

             The finance costs for the Polar contract include not only financial reporting, but
      also central timekeeping, general accounting, and other cost accounting functions.




                                               6
Audit Report No. 6161-2003P10100201                                         SCHEDULE A-1

             Furthermore,

                                dedicated to the Polar Services contract, the contract is still
      considered as having multiple cost objectives.

              These functions specifically support                           working on the Polar
      Services contract and, as such, should be treated as an indirect cost on the contract. In
      addition, the costs should be included in an indirect cost pool because the Polar Services
      contract has multiple final cost objectives also known as Work Breakdown Structures
      (WBS). Many of these WBS are restricted and require the contractor to segregate,
      accumulate, and report costs by WBS. As a result of these circumstances, the
      contractor’s normal accounting practice is to treat costs related to these indirect functions
      as an indirect cost.




              The reclassified                      associated with the various indirect functions
      are as follows:

    Work Breakdown                                                          portion within
        Structure                WBS Description                FY 2003 Indirect Functions
    R-PS30-207
    R-PS40-207
     Subtotal

    R-PS30-212
    R-PS43-238E01
     Subtotal

    R-PS20-208
    R-PS30-208
    R-PS40-208
     Subtotal
    Total




                                                7
Audit Report No. 6161-2003P10100201                                        SCHEDULE A-1

      c.     Contractor’s Reaction:

              RTSC disagrees that the locally incurred costs for functions like
                           should be charged indirect. As a result, RTSC does not agree with
   the reclassification of         of              to an indirect cost.

            The complete text of the contractor’s response to our audit findings is included as
   Appendix 2 of this report.

      d.     Auditor’s Response:

              In our opinion, RTSC position of claiming costs incurred under functions like
                                             as direct costs does not comply with the Cost
   Accounting Standard (CAS) 418. These functions are clearly indirect costs that should not
   be treated as direct costs. CAS 418 requires the consistent classification of costs as direct or
   indirect. RTSC common practice is to charge functions like
                  as indirect costs. Furthermore, RTSC Disclosure Statement, Rev. 10A, dated
   January 1, 2003,


              In addition, the Polar RFP required the contractor’s cost or pricing data to follow
   its disclosed cost accounting practices (CAS disclosure statement). As a result, the RFP
   (procurement) did not require any costs normally classified as indirect
                                                              to be treated as direct costs to the
   contract. The Polar RFP and its requirement for the contractor to follow disclosed cost
   accounting practices is consistent with the intent of the CASB when it published comments
   regarding this issue in Part II, Preambles to the Related Rules and Regulations Published by
   the Cost Accounting Standards Board, Preambles to Part 331, Contract Coverage, Comment
   No. 11, Additional requirements by agencies, states that:

              “…concern was expressed that Federal agencies might require the submission of
   cost proposals in ways inconsistent with the cost accounting practices of some or all of the
   potential offerors. The Board recognizes that this has happened in the past, but it notes that
   Board rules, regulations, and Cost Accounting Standards are to be used by relevant Federal
   agencies as well as by contractors and subcontractors, and it believes that henceforth
   requests for proposals must be fully consistent with such rules, regulations, and standards,
   although of course the Federal agency may ask for supplementary information to
   accompany proposals if this is needed to meet the agency’s requirements.”




                                                8
Audit Report No. 6161-2003P10100201                                  SCHEDULE A-1

             In summary, RTSC Polar Services should comply with its disclosed accounting
   practice which is a requirement of CAS 418-40(a).




                                            9
Audit Report No. 6161-2003P10100201                                     SCHEDULE A-2

                     RPSC CLAIMED FY 2003 MATERIAL COSTS
                             AND RESULT OF AUDIT

             Element of Cost         Claimed         Questioned          Ref.
             Other Material                          $ 603,887          Note 1

EXPLANATORY NOTE:

1.    Other Material Costs

      a.     Summary of Conclusions:

             We questioned a total of $603,887 of RPSC other material cost for FY 2003.
      From the $603,887 questioned costs, $56,748 were associated with alcoholic beverages,
      calendars, discovery hut ornaments, T-shirts, Garment Washed Chino Twill Cap, fleece
      hats multi colored styles with “SWEETLIDS, ANTARTICA” label, Antarctic bobble
      heads, and badminton rackets. We used the EZ Quant Statistical Analysis Sampling
      Program to project $56,748 dollars of other material questioned cost to the R-PS32 other
      material project cost universe. This projection resulted in a total of $593,932 other
      material questioned costs for FY 2003.

             Furthermore, as a result of our transaction testing based on a judgmental sample
      we questioned $9,955 associated with sunglasses. The following table summarizes the
      other material questioned cost transactions for FY 2003:




                                             10
Audit Report No. 6161-2003P10100201                               SCHEDULE A-2

                                                                         Questioned
 Project Document      No. Description                                     Cost
 R-PS32      100962968       Red wine                                    $      142
 R-PS32 101220104            USAP Calendar                                   19,295
 R-PS32      101278852       Discovery Hut Ornaments                         15,920
 R-PS32      101614058       T Shirts                                           234
 R-PS32      101444452       T Shirts                                         1,840
 R-PS32      101588562       T Shirts                                         2,295
 R-PS32      101588569       T Shirts                                         1,791
 R-PS32      101444453       Garment Washed Chino Twill Cap                   1,605
 R-PS32 101606705            Fleece Hats                                      5,399
 R-PS32      101358906       Antarctic Bobble Heads                           4,775
                             Vodka Absolut, Glenfiddich, Wild Turkey,
 R-PS32 101097132            Jameson.                                            482
 R-PS32      101570857       Glenfiddich Special Reserve Malt/Canis            2,313
                             Cream Liquor Amarula, RHUM NEGRITA,
 R-PS32 101280443            Ron Don Q Cristal.                                  216
 R-PS32      101467095       FH STL Badminton Racket                              65
 R-PS32      101570880       Midori Melon Liqueur                                375
                               Sub-Total                                 $    56,748
                             EZ-Quant Questioned Cost Projection             537,184
                             Other Material Cost Questioned for R-PS32   $   593,932

 R-PS33       101215642       Glasses (non-prescription sunglasses)      $     9,955
 Total                        FY 2003 Other Material Questioned Costs    $   603,887




                                         11
Audit Report No. 6161-2003P10100201                                        SCHEDULE A-2

             Costs related to alcoholic beverages are unallowable based on FAR 31.205-51.
      Costs of souvenirs, models, imprinted clothing, buttons, and other mementos provided to
      customers or the public are unallowable based on FAR 31.205-1. FAR 31.201-6 states
      “expressly unallowable costs are required to be segregated from otherwise billable
      contract costs” and can not be made allowable by any other FAR clause or contract
      requirement. All of these costs should be accumulated in an unallowable or otherwise
      non-billable WBS. The booking of these types of costs direct to a billable portion of the
      contract allows for two (2) conditions where the government is at risk:

             (1)     Fee is being applied to expressly unallowable items, and

             (2)     The government is assuming any loss associated with mismanagement of
                     the on-ice facilities such as stores or bars. The offset of unallowable costs
                     with generated revenue does not make the costs otherwise allowable, and
                     therefore they should be segregated from billable costs.

      b.     Basis of Contractor’s Cost:

              The contractor’s claimed other material costs are based on actual costs incurred as
      represented in the contractor’s SAP accounting System under project R-PS32 and R-
      PS33. According to the contractor, these items are for resale in on-ice facilities such as
      the stores or bars. The contractor also stated that the revenue associated with these
      activities is credited back to the contract on each of its quarterly expenditure reports. The
      purpose for booking the costs to the contract was to ensure that the contractor receives
      fee on these items since they were required to obtain and furnish items of this nature.
      The contract requires the contractor to provide the opportunity for persons working on
      the Antarctic program (both RTSC and Non-RTSC) to participate in morale, welfare, and
      recreation facilities such as social establishments. The function of providing the
      opportunity for these types of facilities like bars and stores are allowable based on the
      inherent nature of the contract; however, alcohol, and items for resale in gift shops should
      not be considered allowable and billable costs to the contract.

      c.     Audit Evaluation:

               We obtained a detailed report of other material cost transactions (cost element
      522010) from RPSC SAP Accounting System and performed a statistical sample
      selection of this cost for projects R-PS32 and R-PS37. We also performed a judgmental
      sample selection of other material costs for projects R-PS31, R-PS33 and R-PS34. The
      statistical and judgmental sample selections were performed to verify the allowability,
      allocability, and reasonableness of cost through transaction testing.

                                               12
Audit Report No. 6161-2003P10100201                                       SCHEDULE A-2

           We performed transaction testing to confirm that Raytheon Polar Services follows
      RTSC Cost Accounting Standards, FAR and RPSC contract requirements.

      d.     Contractor’s Reaction:

              RTSC did not concur with the DCAA direct material questioned costs and its
      projection using the EZ-Quant Statistical Analysis Sampling Program. RTSC
      acknowledged that alcoholic beverages, T-shirts, ornaments, hats, bobble heads, and
      glasses are items in company stores being sold to the U.S. Antarctic Program participants
      as part of the overall morale program on the contract. The revenue that results from these
      products sales is credited back to the contract to offset the costs associated with
      purchasing these items. Even if costs of the above items were unbillable/unallowable
      costs, and they are not; (according to the contractor) the associated revenue must be
      credited against the allegedly unallowable costs.

              Furthermore, the contractor did not agree with the questioned cost projection
      using the EZ-Quant methodology as the means of calculating questioned costs. RTSC
      did not concede that the total questioned amount accurately reflects the costs incurred for
      these items in FY 2003.

            The complete text of the contractor’s response to our audit findings is included as
      Appendix 2 of this report.

      e.     Auditor Response:

              Government contracts are required to follow the Federal Acquisition Regulation
      (FAR). While we understand that the Polar contract was developed for a particular
      program with specific needs it still should comply with the FAR. Unallowable costs
      identified in the FAR can not be claimed as allowable costs under government contracts.

               We disagree with RPSC and still believe that RPSC does not want to recognize
      that its FY 2003 claim includes costs which are expressly unallowable based on the
      Federal Acquisition Regulation.

              Furthermore, we do recognize that RPSC credits back the revenue resulting from
      these product sales but not against contract costs. The contractor offsets the costs with
      revenue only on the quarterly expenditure report. The costs are not reduced by revenue
      in any final accumulation point. This practice allows the contractor to receive G&A
      burden and fee on what the FAR defines as expressly unallowable items.


                                              13
Audit Report No. 6161-2003P10100201                                         SCHEDULE A-2

             The practice of booking unallowable costs direct to the contract makes the
      contractor in noncompliance with FAR 31.205. Specifically, FAR 31.205-14 states that:

              Costs of amusement, diversions, social activities, and any directly associated
      costs such as tickets to shows or sports events, meals, lodging, rentals, transportation,
      and gratuities are unallowable. Costs made specifically unallowable under this cost
      principle are not allowable under any other cost principle. Costs of membership in
      social, dining, or country clubs or other organizations having the same purposes are also
      unallowable, regardless of whether the cost is reported as taxable income to the
      employees.

             We believe that as long as RTSC Polar Services recognizes the fact that they are
      booking unallowable costs as allowable items they are noncompliant with Cost
      Accounting Standard (CAS) 405 – Accounting for Unallowable Costs. The CAS 405
      contains guidelines on:

             (1)      Identification of costs specifically described as unallowable, at the time
      such costs first become defined or authoritatively designated as unallowable and;

              (2)     The cost accounting treatment to be accorded such identified unallowable
      costs to promote the consistent application of sound cost accounting principles covering
      all incurred costs.

             In addition to the CAS and FAR noncompliances, there is also no visibility to
      determine if the contractor’s revenues exceed the costs creating a profit situation or if the
      management of these costs is actually in a loss position which would create an effect of
      having the government subsidize the loss on the unallowable costs.

              In summary, contracts can require a variety of provisions and supplies based on
      the basic contract agreement and further modifications. However, government contracts
      need to follow public law as defined by the Cost Accounting Standards and also the
      Federal Acquisition Regulation based on FAR Clause 52.230-2.

      The FAR 31.201-1(b) states:

      “While the total cost of a contract includes all costs properly allocable to the contract,
      the allowable costs to the Government are limited to those allocable costs which are
      allowable pursuant to Part 31 and applicable agency supplements”.




                                               14
Audit Report No. 6161-2003P10100201                                      SCHEDULE A-2

      Furthermore, the Statement on Auditing Standards (SAS) No. 39 states:

      “The auditor should project the misstatement results of the sample to the items from
      which the sample was selected.”




                                             15
Audit Report No. 6161-2003P10100201                                      SCHEDULE A-3

                       RPSC CLAIMED SUBCONTRACT COSTS
                             AND RESULTS OF AUDIT

           Element of Cost            Claimed           Unresolved Ref.

           Subcontracts                                                    Note 1

EXPLANATORY NOTE:

1.    Subcontract – Unresolved

      a.     Summary of Conclusions:

             We classified              of subcontract costs as unresolved pending receipt of
      requested agreed upon procedures evaluation from the DCAA Gulf Coast Branch office.

      b.     Basis of Contractor’s Costs:

             The contractor’s claimed subcontract costs are based on actual costs incurred as
      represented in its accounting books and records.

      c.     Audit Evaluation:

             We reviewed the contractor’s schedule J from the incurred cost submission to
      determine whether any subcontractors had significant claimed costs. We determined
      which DCAA office had cognizant over the selected subcontractor and requested an
      agreed upon procedure evaluation from the applicable office.

              We requested an agreed upon procedure evaluation from the Gulf Coast Branch
      office on November 22, 2005 for purchase order 4500098096 and also for purchase order
      4500098100. The purchase order was issued to
                                             . We have              unresolved costs related
      to purchase order 4500098096 and             unresolved costs related to purchase order
      4500098100.




                                             16
Audit Report No. 6161-2003P10100201                                          SCHEDULE A-4

            CONTRACTOR’S CLAIMED OTHER DIRECT COSTS (ODC)
                         AND RESULT OF AUDIT

      Cost Element Claimed                   Questioned               Ref.

      Other Direct Costs                                                        Note 1

EXPLANATORY NOTES:

1.    Other Direct Costs

      a.     Summary of Conclusions:

              We questioned                 of RPSC Miscellaneous other direct costs (ODC) for
      FY 2003. Of this amount                       is related to the contractor’s classification of
      indirect functions as direct contract costs (see Table on page 18).




                                                17
Audit Report No. 6161-2003P10100201                                   SCHEDULE A-4

                                                                      FY 2003
                                                                     Questioned
        Work Breakdown Structure W        BS Description             Pool Costs
        R-PS00-2A0100
        R-PS00-2B0100
        R-PS20-207
        R-PS30-207
        R-PS40-207
         Sub-Total

        R-PS00-2A0014
        R-PS00-2B0014
        R-PS20-212
        R-PS30-212
        R-PS43-238E01
        R-PS43-238E06
        R-PS43-238E08
        R-PS43-238E09
        R-PS43-238E14
         Sub-Total

        R-PS00-2A0120
        R-PS00-2B0120
        R-PS20-208
        R-PS30-208
        R-PS40-208
         Sub-Total

          Total

             Of the                Miscellaneous ODC questioned,            is related
                                                                   from indirect to direct
      contract costs (see Table on page 19).




                                               18
Audit Report No. 6161-2003P10100201                                        SCHEDULE A-4

                        Journal Entry                                      Transaction
           Doc. No.     Description WBS                 Element             Amount
                        Polar Indirect-Direct
           100094039    Reclassification R-PS30-201D08BA

                        2003 Qtr 1 & 2 Polar
           110399452    Direct-Indirect              R-PS30-201D08BA

           110450692 Polar    Direct-Indirect        R-PS30-201D08BA



           110539869    Jan-June R-PS40-201E08BA

           FY 2003 Total Reclassified Allocations

      b.        Basis of Contractor’s Cost:

             The contractor’s claimed Miscellaneous ODC is based on actual costs incurred as
      represented in its accounting books and records.

                                                were booked direct to the Polar Services contract
      as part of the
                                . These costs when booked and billed as direct costs reduced
      the amount of overhead incurred on the contract.

             Furthermore, the                                 charged on the Polar contract
      were obtained from the Raytheon Technical Services Incurred Cost submissions for fiscal
      year 2003.

      c.        Audit Evaluation:

             We reviewed the Work Breakdown Structure (WBS) for the Polar contract and
      confirmed that the contractor was booking all local support functions as direct costs. The
      WBS listing was then reviewed to determine the various support functions that, in our
      opinion, were an indirect function of the program. We concentrated primarily on the
      support functions of
                  .




                                                19
Pages 20-27 have been redacted in their entirety.
Audit Report No. 6161-2003P10100201                                        SCHEDULE B-1

      b.     Basis of Contractor’s Cost:

              The contractor’s claimed costs are based on actual costs incurred as represented in
      its accounting books and records.

      c.     Audit Evaluation:

             Polar Services demonstrated, through a prepared schedule and Annual Program
      Plan Cost Structure, the methodology used when recording allocated costs from
      Raytheon Corporate and Raytheon Technical Services (RTSC). Understanding the
      contractor’s methodology and classification of costs direct vs. indirect is important since
      the contract includes a      overhead ceiling rate.

             It was determined that Polar Services was recording allocations direct to the
      contract using the General Management WBS. The RTSC disclosure statement Revision




                                   .




             The questioned amount is due to transactions selected for examination that the
      contractor was unable to adequately support. For these unsupported transactions, we
      questioned the associated costs in accordance with FAR 31.201-2(d) which requires the
      contractor to maintain records, including supporting documentation, adequate to
      demonstrate that costs claimed have been incurred, are allocable to the contract, and
      comply with applicable cost principles.


                                               28
Audit Report No. 6161-2003P10100201                                          SCHEDULE B-1

                  In addition, part of the questioned costs also includes promotional merchandise
         that is expressly unallowable in accordance with FAR 31.205-1(f)(6), which makes
         unallowable the costs of souvenirs, models, imprinted clothing, buttons, and other
         mementos provided to customers or the public.

         b.     Basis of Contractor’s Cost:

                The RTSC and Corporate allocations charged on the Polar contract were obtained
         from the Raytheon Technical Services Incurred Cost submissions for fiscal years 2003.

    c.          Audit Evaluation:

              The allocations in total were audited as part of the RTSC and Corporate Incurred
   Cost audits. As part of this audit, we are required to review the audit findings of the incurred
   cost submissions of RTSC and Raytheon Corporate. We reviewed these audits and
   determined that recommended adjustments were made to the claimed costs in those
   submissions and, as such, have incorporated the impact to Polar Services. These costs have
   been questioned in no other audit as they relate to RPSC. We have calculated the impact of
   our audit results on the allowable contract costs because the Polar Services contract has an
   overhead ceiling rate of        (See Exhibit D).




                                                 29
Audit Report No. 6161-2003P10100201                                       SCHEDULE B-2

                              FRINGE BENEFITS
                       COMPUTATION OF AUDIT ADJUSTMENT
                                                                              Questioned
   Union Fringe Audited                          Audited        Claimed      Costs/(Upward
   Code     Pool Rate Labor             Base     Fringe          Fringe       Adjustment)
   RTQ 21925
   21906
   RTT 21903
   RTL 20984
   RTA 20983
   RSE 20982
   RTK 20966
   RB 20915
   RTJ 20912
   R01 20900
   Total

    Total Fringe Questioned/Audit Adjustment

EXPLANATORY NOTE:

1. Fringe     Expenses

       a.     Summary of Conclusions:

              An audit of the claimed fringe expenses resulted in questioned costs of $138,757
       for FY 2003. The questioned costs resulted from the application of audited RTSC rates
       as opposed to the contractor’s claimed rates to the applicable fringe codes for Polar
       Services.

       b.     Basis of Contractor’s Cost:

               The contractor applies RTSC claimed fringe rates to the labor bases that the Polar
       program participates in. Participation is based on the various union codes applicable to
       the labor incurred.




                                               30
Audit Report No. 6161-2003P10100201                                       SCHEDULE B-2

      c.     Audit Evaluation:

              The labor costs have been segregated based on the applicable fringe bases and
      contractor fiscal year. The RTSC audited fringe rates for FY 2003 were then applied to
      the labor according to the union code associated with the labor bases. The applied fringe
      was then compared to the claimed fringe from the contractor’s incurred cost submission
      for the same time frame resulting in an over application of claimed fringe costs of
                (See Schedule B-2).

      d.     Contractor’s Response:

              RTSC has reviewed the questioned fringe cots of                 and determined that
      the Polar claimed fringe rates represented preliminary actual rates compiled shortly after
      year-end 2003, not the final fringe rates included in RTSC’s incurred cost claim. RTSC
      agrees that these are not the correct rates; upon negotiation of the RTSC 2003 incurred
      cost claim, the Polar rates will be updated to reflect the appropriate negotiated rates.




                                              31
Audit Report No. 6161-2003P10100201                                         SCHEDULE B-3

                  CLAIMED AND AUDITED G&A POOL, BASES AND RATE
                               AND RESULT OF AUDIT
                                                       Audited
                         Claimed Costs   Questioned    Costs FY
     G&A                    FY 2003     Costs FY 2003   2003                              Ref.

     Total Pool
     Polar VAB
     Polar G&A Rate

EXPLANATORY NOTES:

1.       G&A Pool Expenses

         a.       Summary of Conclusions:

                  Our examination of the Polar G&A pool resulted in questioned allocated cost of
                    resulting from the FY 2003 RTSC incurred cost audit results.

                RTSC Audit Report No. 6161-2003T10100001 disclosed unallowable costs based
         on FAR 31.205-14 within the RTSC General Management expenses, unallowable costs
         within RTSC Legal, RTSC State Income Tax, and RTSC Restructuring. Raytheon Polar
         Services portion of the RTSC questioned costs is      .

         b.       Basis of Contractor’s Cost:

                  The contractor’s costs for G&A were based primarily on


                  RPSC G&A expense represent


              .

         c.       Audit Evaluation:

                 We reviewed RPSC G&A Summary Report on the contractor’s SAP Accounting
         System and found no locally incurred G&A expenses. Moreover, RPSC G&A allocated
         costs to Raytheon Polar Services Company were audited in the FY 2003 Incurred Cost
         Audit.

                                                 32
Audit Report No. 6161-2003P10100201                                       SCHEDULE B-3

      Part of this audit consisted in reconciling the expenses representing allocations from the
      Raytheon Corporate office and the amounts included in the DCAA Raytheon Corporate
      office’s audit report. The FY 2003 RTSC audit results of allocated G&A expenses were
      disclosed under Audit Report No. 6161-2003T10100001 which was performed by the
      Herndon Branch office. This audit report disclosed total questioned costs of
      of unallowable G&A expenses from which                  pertains to Raytheon Polar Services
      Company.

      d. Contractor’s     Reaction:

             RTSC agrees that the amounts applicable to Polar Services Company will be
      adjusted, if necessary, to reflect the final negotiated rates.

2.    Value Added G&A Base

      a.     Summary of Conclusions:

             The questioned G&A Base cost of                are solely related to the questioned
      fringe costs.


      b.     Basis of Contractor’s Cost:

              The contractor’s claimed costs are based on actual costs incurred as represented in
      its actual books and records.

      c.     Audit Evaluation:

              The labor costs have been segregated based on the applicable fringe bases and
      contractor fiscal year. The RTSC audited fringe rates for FY 2003 were then applied to
      the labor according to the union code associated with the labor bases. The applied fringe
      was then compared to the claimed fringe from the contractor’s incurred cost submission
      for the same time frame resulting in an over application of claimed fringe costs of
                 (See Schedule B-2).




                                              33
Audit Report No. 6161-2003P10100201                                        EXHIBIT C

     OVERHEAD AND G&A COSTS IN EXCESS OF CONTRACT RATE CEILINGS
                    Polar Services Contract No. OPP-0000373
                Period January 1, 2003 through December 31, 2003

            :




EXPLANATORY NOTES:

1.     Overhead and G&A Costs in Excess of Ceiling – Without Audit Adjustments

       a.       Summary of Conclusions:

               We computed the overhead and G&A costs in excess of the ceiling rates. These
       amounts represent the cost in excess of the ceiling rates based on the contractor’s claimed
       indirect rates and allocation bases, i.e., without any audit adjustments.




                                               34
Audit Report No. 6161-2003P10100201                                       EXHIBIT C

      b.     Basis of Contractor’s Cost:

             The contractor’s claimed costs and indirect rates are based on its certified
      incurred cost submission.

      c. Audit      Evaluation:

              We computed the overhead and G&A costs in excess of the ceiling rates but
      without including any audit adjustments. These amounts represent the costs in excess of
      the ceiling rates based on the contractor’s claimed indirect rates and allocation bases.
      Any comparison to billed costs should be performed after final negotiations and
      resolution with the contractor.

2.    Overhead and G&A Costs in Excess of Ceiling – With Audit Adjustments

      a.     Summary of Conclusions:

             We computed the overhead and G&A costs in excess of the ceiling rates. These
      amounts represent the costs in excess of the ceiling rates that includes the audit
      adjustments discussed in this report.

      b.     Basis of Contractor’s Cost:

             The contractor’s claimed costs and indirect rates are based on its certified
      incurred cost submission.

      c. Audit      Evaluation:

              We computed the overhead and G&A costs in excess of the ceiling rates that
      reflects our audit adjustments. These amounts represent the costs in excess of the ceiling
      rates based on incorporating the audit adjustments made to the contractor’s indirect cost
      pools and allocation bases. Any comparison to billed costs should be performed after
      final negotiations and resolution with the contractor.

      d.     Contractor’s Reaction:

              RTSC agrees with DCA A that these costs are not allowable on the contract.
      However, according to the contractor the costs are appropriately allocable to the contract
      and therefore need to be included in the incurred cost claim even though there is no
      intention in recovering these costs from the Polar customer.

                                              35
Audit Report No. 6161-2003P10100201                                        EXHIBIT C

              RTSC stated that it has not included any of these over ceiling costs in the billings
      to date and has no intention of billing them in the future.

      e.     Auditor’s Response:

              We disagree that the contractor has not recovered the cost in excess of the ceiling
      rates. The contractor has billed and recovered the over ceiling amounts by reclassifying
      indirect costs as direct (e.g., Corporate/RTSC allocations, etc.). We reclassified these
      direct costs                                                                             to
      overhead and computed the amounts that exceeded the contract’s ceiling rates.




                                               36
Audit Report No. 6161-2003P10100201
                                                                                       (Perm. File,
                    CONTRACTOR ORGANIZATION AND SYSTEMS                                “Q” Drive)

I.     Organization

       RTSC’s headquarters is located in Reston, VA.




       RTSC has a multi-disciplined workforce of approximately 10,000 employees. RTSC
provides technical, scientific, and professional services to defense, federal, and commercial
customers on all seven continents, including support for operations in space, at sea, and on land.
RTSC had annual sales of approximately                     in FY 2005, of which approximately
      are primarily government prime contracts and subcontracts. Of the government contracts
and subcontracts, approximately                     are flexibly priced (i.e. cost type and time and
materials (T&M) type).


                                                 37
Page 38 has been redacted in its entirety
Audit Report No. 6161-2003P10100201




       In Audit Report No. 6161-2006T11070301 dated September 5, 2006, DCAA examined
the Control Environment and Overall Accounting System and the related internal control policies
and procedures. Based on our examination, we concluded that the Control Environment and the
Overall Accounting System and related internal control policies and procedures are adequate.




                                              39

                                FOR OFFICIAL USE ONLY
Audit Report No. 6161-2003P10100201




        DCAA reviewed RTSC’s Budget and Planning System and related internal control
policies and procedures under Audit Assignment No. 6161-2006T11020301 dated
September 8, 2006. Based on its review DCAA determined that the RTSC’s Budget and
Planning system and the related internal control policies and procedures are adequate.




                                             40

                               FOR OFFICIAL USE ONLY
Page 41 has been redacted in its entirety
Audit Report No. 6161-2003P10100201




       DCAA examined RTSC’s Indirect and Other Direct Cost System of internal controls
under Audit Assignment No. 6161-2005T14980301, with a reported issued on
September 28, 2005. Based on its examination, DCAA determined that the RTSC Indirect/Other
Direct Cost System is inadequate in part.




                                            42

                              FOR OFFICIAL USE ONLY
Audit Report No. 6161-2003P10100201

       •




       Furthermore, in Audit Report No. 6161-2004T14980202, dated December 15, 2005,
DCAA evaluated the Indirect and ODC Internal Controls for RTSC Polar Services and
determined that the system is inadequate. A brief summary of the deficiencies are as follows:

       •   The RTSC segment disclosure statement which defines the contractor’s current
           accounting practice regarding indirect and ODC costs, excludes Raytheon Polar
           Services as of January 1, 2005. To date, a disclosure statement for Raytheon Polar
           Services has not been submitted to the Government.
       •   Policies and procedures regarding the allowability of selected costs are in
           noncompliance with the Federal Acquisition Regulation (FAR) Part 31.




                                               43

                                FOR OFFICIAL USE ONLY
Audit Report No. 6161-2003P10100201

           Specifically, RPSC policies and procedures address certain costs as allowable which,
           in our opinion, are expressly unallowable based on applicable FAR provisions.
       •   Costs that are made expressly unallowable based on the FAR or RPSC/RTSC policies
           and procedures were charged as allowable, indicating that the contractor is not
           adequately complying with established controls to properly classify and record
           unallowable costs. The deficiencies represent a noncompliance with CAS 405-40(a),
           Accounting for Unallowable Costs, FAR Part 31, and established company policies
           and procedures.
       •   The contractor lacks policies and procedures regarding the training of employees in
           the Indirect/ODC system.
       •   The contractor has inadequate policies and procedures regarding periodic,
           independent management reviews and its associated compliance.
       •   We identified inadequacies that affect the allocability of costs indicating that the
           contractor lacks adequate controls to ensure the consistent classification of costs
           based on CAS 418, Allocation of Direct and Indirect Cost [CAS 418-40(a)].

        DCAA will perform an RTSC Polar Services Indirect and ODC Internal Control follow-
up review once the contractor has had sufficient time to implement adequate controls to correct
the deficiencies and comply with our recommendations.




                                               44

                                FOR OFFICIAL USE ONLY
Pages 45 through 47 have been redacted in their entirety
Audit Report No. 6161-2003P10100201




.

 CASB                9903.202-1: Audit Report No. 6161-2005T19200303, dated
November 18, 2005, indicates that RTSC disclosed and established cost accounting practices are
in noncompliance with CASB 9903.202-1, Disclosure Statement General Requirements.
Specifically, effective January 1, 2005, RTSC Raytheon Polar Services Company (RPSC)
business unit does not have a separate disclosure statement to describe its unique cost accounting
practices used to account for direct and indirect costs. On April 5, 2006, the DACO issued an
initial finding of noncompliance on this issue. We are awaiting RTSC’s response to the finding.

 CAS               418: Audit Report No. 6161-2005T19200001, dated June 23, 2005, indicates
that the actual cost accounting practices of one of RTSC’s business units, Raytheon Polar
Services Company (RPSC), are in noncompliance with CAS 418 and with disclosed cost
accounting practices. Specifically, during the period from January 1, 2000 through
December 31, 2002, costs that were disclosed as indirect were recorded and charged direct to the
Polar Services contract. Recording and charging these costs direct to the contract results in 100
percent recovery through contract billings to the government (i.e., National Science Foundation).
                                                 48

                                 FOR OFFICIAL USE ONLY
Audit Report No. 6161-2003P10100201

On September 28, 2005, the DACO issued an initial finding of noncompliance on this issue. The
contractor’s December 5, 2005 response was considered a non-response by the DACO.
Therefore, on January 17, 2006, the DACO issued a request for response to the initial finding of
noncompliance. The contractor’s January 24, 2006 response is currently being evaluated by the
DACO.




                The remainder of this page has been redacted




                                               49

                                FOR OFFICIAL USE ONLY
Pages 50 through 52 have been redacted in their entirety
Audit Report No. 6161-2003P10100201

                                      DCAA PERSONNEL

Telephone                                                               No.
Primary contact(s) regarding this audit:




Other contact(s) regarding this audit report:


                                                             FAX No.


                                                             E-mail Address


General information on audit matters is available at http://www.dcaa.mil/.

AUDIT REPORT AUTHORIZED BY:


                                                           /Signed/

                                                           LARRY TATEM

                                                           DCAA Herndon Branch Office




                                                52

                                  FOR OFFICIAL USE ONLY
Audit Report No. 6161-2003P10100201

                AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION
 E-m                                                ail Address
National Science Foundation                     Kstagner@nsf.gov
ATTN: Ms. Deborah Cureton,
Associate Inspector General for Audit           Telephone No.
4201 Wilson Boulevard                           (303) 312-7655
Arlington, VA 22230

Raytheon Polar Services                         (Copy furnished thru ACO)
Raytheon Technical Services Company
12160 Sunrise Valley Drive
Reston, VA 20191

RESTRICTIONS




                                        53
Audit Report No. 6161-2003P10100201




                            APPENDIX 1

                         Certificate of Final Indirect Costs




                                         54
Audit Report No. 6161-2003P10100201




                            APPENDIX 2

 RPSC Letter Response to the DCAA Draft Audit Report No. 6161-2003P10100201, dated
                                September 1, 2006




                                        56
             DEFENSE CONTRACT AUDIT AGENCY

             AUDIT REPORT NO. 6161–2004P10100201
                                                      September 26, 2006

PREPARED FOR: National Science Foundation
              ATTN: Ms. Deborah Cureton
              Associate Inspector General for Audit
              4201 Wilson Boulevard
              Arlington, VA 22230

PREPARED BY:      DCAA Herndon Branch Office
                  171 Elden Street, Suite 305
                  Herndon, VA 20170
                      Telephone No.
                      FAX No.
E-m                       ail Address

SUBJECT:          Raytheon Polar Services FY 2004 Incurred Cost Audit

REFERENCES:       Prime Contract No. OPP-0000373

CONTRACTOR:       Raytheon Polar Services
                  Raytheon Technical Services Company
                  12160 Sunrise Valley Drive
                  Reston, VA 20191

REPORT RELEASE RESTRICTIONS: See Page 47
                                                                           Page
CONTENTS:          Subject of Audit                                          1
Executive                     Summary                                        1
                   Scope of Audit                                            2
                   Results of Audit                                          3
                   Contractor Organization and Systems                      31
                   DCAA Personnel and Report Authorization                  46
                   Audit Report Distribution and Restrictions               47
Appendices                                                                  48
Audit Report No. 6161-2004P10100201

                                     SUBJECT OF AUDIT

        We examined the Raytheon Technical Services Company (RTSC) certified final indirect
cost rate proposal dated June 30th, 2005 and related books and records for the reimbursement of
Polar Services FY 2004 incurred costs. The purpose of the examination was to determine
allowability of direct and indirect costs and recommend Contracting Officer-determined indirect
cost rates for FY 2004. The proposed rates apply to prime contract OPP-0000373. A copy of
RTSC Certificate of Final Indirect Costs, dated June 30, 2005 is included as Appendix 1 to this
report.

       The incurred cost proposal is the responsibility of the contractor. Our responsibility is to
express an opinion based on our examination.


                                   EXECUTIVE SUMMARY

       Our examination of the $158.2 million proposal related to Polar Services contract
disclosed significant questioned costs, including the following significant items:

 Treatm               ent Indirect Functions
               Reclassified Corporate and RTSC Allocations
               Expressly unallowable Costs                                      503,316
 Other               Direct Cost

SIGNIFICANT ISSUES:

   1. We reclassified                    of ODC and               of labor costs related to
                                                                                   .

   2. We reclassified               of Corporate and RTSC allocations that were charged direct
      to the contract as Other Direct Costs (ODC).

   3. We questioned $503,316 related to alcoholic beverages and T shirts booked on the
      Raytheon Polar Services claim as material cost.

   4. We questioned               of Other Direct Costs based on FAR 31.201-3.

   5. We identified              of G&A costs in excess of the contract ceiling. The G&A rates
      were recalculated and compared to the claimed rates to determine the amounts in excess
      of the      contract ceiling rate.
Audit Report No. 6161-2004P10100201

   6. We identified                of overhead costs in excess of the contract ceiling. The
      overhead rates were recalculated and compared to the claimed rates to determine the
      amounts in excess of the      contract ceiling rate.


                                      SCOPE OF AUDIT

       Except for the qualifications discussed below, we conducted our examination in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the examination to obtain reasonable assurance about whether the data and
records evaluated are free of material misstatement. An examination includes:

       •   evaluating the contractor's internal controls, assessing control risk, and determining
           the extent of audit testing needed based on the control risk assessment;
       •   examining, on a test basis, evidence supporting the amounts and disclosures in the
           data and records evaluated;
       •   assessing the accounting principles used and significant estimates made by the
           contractor;
       •   evaluating the overall data and records presentation; and
       •   determining the need for technical specialist assistance.

       We evaluated the proposal using the applicable requirements contained in the:

       •   Federal Acquisition Regulation; and
       •   Cost Accounting Standards.

        For FY 2004, we considered RTSC Accounting System to be adequate for accumulating,
reporting, and billing costs on Government contracts. As described in the Contractor
Organization and Systems section of this report, our examination of RTSC internal controls with
respect to integrity and ethical values identified significant deficiencies which could have a
material impact on the contractor’s submission. The scope of our examination reflects the risk of
unallowable costs being included in the submission and includes expanded testing to provide a
reasonable basis for our opinion.

        In addition, Raytheon Polar Services uses the Polar Operations Financial Management
System (POFMS) to organize costs from the SAP Accounting System and then bill the cost
direct to the National Science Foundation. We have not reviewed POFMS or deemed the system
adequate.



                                                 2
Audit Report No. 6161-2004P10100201

QUALIFICATIONS:

        We evaluated auditable type Government subcontracts for FY 2004 issued by RPSC. We
identified a subcontract awarded to Agunsa with a value of $8,318,391 from which $2,683,240
were incurred during FY 2004. Based on the NSF-OIG petition, an assist audit from the DCAA
office with cognizant over Agunsa was not performed due to an investigation issue. Therefore,
the results of our evaluation are qualified to the extent that the issuance of this report does not
indicate final acceptance of the claimed subcontract costs.

        Moreover, we did not receive the results of the FY 2004 RTSC Incurred Cost Audit in
time for incorporation into this report. The results of the RTSC Incurred Cost Audit under
Assignment No. 6161-2004T10100001 are considered essential to the conclusion of this
examination. Therefore, the audit results are qualified to the extent that additional costs related
to RTSC and Raytheon Corporate allocations, assessments and fringe costs to Raytheon Polar
Services Company may be questioned based on the results of the RTSC Incurred Cost Audit.
Upon receipt of the Audit Report No. 6161-2004T10100001, we will provide a supplemental
report if the RTSC incurred cost audit report include any findings applicable to Raytheon Polar.


                                     RESULTS OF AUDIT

AUDITOR’S OPINION

       a.      Indirect Rates. In our opinion, the contractor’s proposed indirect rates are not
acceptable as proposed. The examination results and recommendations are presented in the
Exhibit B of this report.

        b.     Direct Costs. In our opinion, except for the unresolved costs in the amount of
$2,683,240, the contractor’s claimed direct costs are acceptable as adjusted by our examination.
We questioned and/or reclassified                of direct costs proposed under the Polar Services
contract. Questioned and/or reclassified direct costs by element are presented in Exhibit A-1, of
this report. Direct costs not questioned are provisionally approved pending final acceptance.
Final acceptance of amounts proposed under Government contracts does not take place until
performance under the contract is completed and accepted by the cognizant authorities, and the
audit responsibilities have been completed.

        We discussed the results of our examination with
in an exit conference held on July 20, 2006. RPSC did not concur with our questioned costs.
See Appendix 2 of this report for the contractor’s response to our questioned costs.


                                                 3
Audit Report No. 6161-2004P10100201                                          EXHIBIT A

            STATEMENT OF CONTRACTOR’S CLAIMED DIRECT COSTS
                            AND RESULTS OF AUDIT
          RAYTHEON POLAR SERVICES CONTRACT NUMBER OPP-0000373
                 Period January 1, 2004 through December 31, 2004

Cost Element                Claimed        Questioned            Unresolved         Ref.
Direct Labor                                                     $         0    Schedule A-1
Material                                   503,316                              Schedule A-2
Subcontracts                                                                 Schedule    A-3
Other Direct Costs                                                __________    Schedule A-4

Totals

        The claimed cost column represents amounts included in the contractor’s certified
indirect cost submission for the Polar Services contract. This column does not necessarily
represent amounts that the contractor plans to submit for reimbursement under the contract.

         Minor differences may exist in the supporting schedules due to rounding.




                                                4
Audit Report No. 6161-2004P10100201                                      SCHEDULE A-1

                            RPSC FY 2004 DIRECT LABOR COSTS
                                 AND RESULTS OF AUDIT

                                     Claimed        Questioned
            Cost Element              Cost            Cost                     Ref.

            Direct Labor                                               Note         1

EXPLANATORY NOTE:

1. Direct        Labor:

       a.        Summary of Conclusions:

               We reclassified                 of the contractor’s claimed direct labor associated
       with various indirect functions to the overhead pool based on its disclosed accounting
       practices.

       b.        Basis of Contractor’s Cost:

              The contractor’s claimed labor costs are based on actual costs incurred as
       represented in its accounting books and records.

       c.        Audit Evaluation:

               RPSC recorded                  as direct labor for those labor costs associated with
       the indirect functions of Finance, Facility, and Human Resources using the General
       Management WBS.

              The finance costs for the Polar contract include not only financial reporting, but
       also central timekeeping, general accounting, and other cost accounting functions.
       Furthermore, Human Resource functions related to the Polar Services contract are
       accumulated as a direct charge and billed accordingly on the contract. While the human
       resource function is dedicated to the Polar Services contract, the contract is still
       considered as having multiple cost objectives.

              These functions specifically support direct labor personnel working on the Polar
       Services contract and, as such, should be treated as an indirect cost on the contract. In
       addition, the costs should be included in an indirect cost pool because the Polar Services


                                                5
Audit Report No. 6161-2004P10100201                                      SCHEDULE A-1

      contract has multiple final cost objectives also known as work breakdown structures
      (WBS). Many of these WBS are restricted and require the contractor to segregate,
      accumulate, and report costs by WBS. As a result of these circumstances, the
      contractor’s normal accounting practice is to treat costs related to these indirect functions
      as an indirect cost.




              The reclassified                      associated with the various indirect functions
      are as follows:

                                                                     Direct Labor
                 Work                                              portion within FY
              Breakdown                                              2004 Indirect
               Structure              WBS Description                  Functions

           R-PS40-207
           R-PS50-207
            Sub-Total

           R-PS43-238E01
           R-PS53-238
            Sub-Total

           R-PS40-208
           R-PS50-208
            Sub-Total

           Total

      d.     Contractor’s Reaction:

              RTSC disagrees that the locally incurred costs for functions like
                              should be charged indirect. As a result, RTSC does not agree with
      the reclassification of                            to an indirect cost.




                                                6
Audit Report No. 6161-2004P10100201                                     SCHEDULE A-1

            The complete text of the contractor’s response to our audit findings is included as
      Appendix 2 of this report.

      e.     Auditor’s Response:

              In our opinion, RTSC position of claiming costs incurred under functions like
                                                   as direct costs does not comply with the Cost
      Accounting Standard 418. These functions are clearly indirect costs that should not be
      treated as direct costs. CAS 418 requires the consistent classification of costs as direct or
      indirect. It is RTSC common practice to charge functions like
                           as indirect costs. Furthermore, RTSC Disclosure Statement, Rev. 11,
      dated January 1, 2004,
                                                                  .

               Moreover, the Polar RFP required the contractor’s cost or pricing data to follow
      its disclosed cost accounting practices (CAS disclosure statement). As a result, the RFP
      (procurement) did not require any costs normally classified as indirect
                                                                   to be treated as direct costs
      to the contract. The Polar RFP and its requirement for the contractor to follow disclosed
      accounting practices is consistent with the intent of the CASB when it published
      comments regarding this issue in Part II, Preambles to the Related Rules and Regulations
      Published by the Cost Accounting Standards Board, Preambles to Part 331, Contract
      Coverage, Comment No. 11, Additional requirements by agencies, states that:

              “…concern was expressed that Federal agencies might require the submission of
      cost proposals in ways inconsistent with the cost accounting practices of some or all of
      the potential offerors. The Board recognizes that this has happened in the past, but it
      notes that Board rules, regulations, and Cost Accounting Standards are to be used by
      relevant Federal agencies as well as by contractors and subcontractors, and it believes
      that henceforth requests for proposals must be fully consistent with such rules,
      regulations, and standards, although of course the Federal agency may ask for
      supplementary information to accompany proposals if this is needed to meet the agency’s
      requirements.”

              In summary, RTSC Polar Services should comply with its disclosed accounting
      practice which is a requirement of CAS 418-40(a).




                                                7
Audit Report No. 6161-2004P10100201                                     SCHEDULE A-2

                     RPSC CLAIMED FY 2004 MATERIAL COSTS
                             AND RESULT OF AUDIT

               Element of Cost           Claimed         Questioned        Ref.

               Other Material                            $   503,316      Note 1

EXPLANATORY NOTE:

1.    Other Material Costs:

      a.     Summary of Conclusions:

              We questioned $503,316 of RPSC other material costs considered unallowable
      per FAR 31.205. From the $503,316 questioned costs, $373,354 represents questioned
      projected costs related to the booking of screen printed t-shirts. Costs of souvenirs,
      models, imprinted clothing, buttons, and other mementos provided to customers or the
      public are unallowable based on FAR 31.205-1(f)(6).

             In addition we questioned $129,962 of costs related to hard liquor purchased for
      consumption in the Antarctic. Costs of alcoholic beverages are expressly unallowable
      based on FAR 31.205-51.

      b.     Basis of Contractor’s Cost:

              The contractor’s claimed other material costs are based on actual costs incurred as
      represented in the contractor’s SAP accounting system under several projects. According
      to the contractor, many of the material costs incurred are for resale in on-ice facilities
      such as stores or bars. The contractor also stated that the revenue associated with these
      activities is credited back to the contract on each of its quarterly expenditure reports. The
      purpose for booking the costs to the contract was to ensure that the contractor receive fee
      on these items since they were required to obtain and furnish items of this nature. The
      contract requires the contractor to provide the opportunity for persons working on the
      Antarctic program (both RTSC and Non-RTSC) to participate in morale, welfare, and
      recreation facilities such as social establishments. The function of providing the
      opportunity for these types of facilities like bars and stores are allowable based on the
      inherent nature of the contract; however, alcohol, and items for resale in gift shops should
      not be considered allowable and billable costs to the contract.



                                               8
Audit Report No. 6161-2004P10100201                                    SCHEDULE A-2

      c. Audit       Evaluation:

              We obtained a detailed report of other material cost transactions (cost element
      522010) from RPSC SAP Accounting System and performed a statistical sample
      selection of this cost for project R-PS42. We reviewed the supporting documentation for
      the transactions in our sample. The total of other material costs questioned was projected
      to the universe by using the EZ Quant Statistical Analysis Sampling Program.

              Furthermore, we performed a judgmental sample selection of other material costs
      for the following work breakdown structures:

                     R-PS42-223C22E09BA
                     R-PS42-223C22E09BC
                     R-PS42-224C22E09BC
                     R-PS42-222C22E09AE

              We also performed a judgmental sample selection of other material costs for
      project R-PS41. The statistical and judgmental sample selections were performed to
      verify the allowability, allocability and reasonableness of cost through transaction
      testing. We performed transaction testing to confirm that Raytheon Polar Services
      follows RTSC Cost Accounting Standards, FAR and RPSC contract requirements.

      d. Contractor’s      Reaction:

                                                   sent to DCAA a memorandum response on
      September 13, 2006 which states that RPSC did not incur the costs of alcohol and
      souvenirs for the benefit of itself or its own employees; nor were the store inventory
      items, including clothing and other souvenirs, acquired for either “public relations” or
      “advertising” purposes. Accordingly, these are not the type of costs that were intended to
      be treated as unallowable under FAR 31.205-1 or 31.205-51. Even if DCAA is correct
      that the costs are public relations costs covered by FAR 31.205-1, the costs are expressly
      allowable because they are clearly and specifically required under the contract.

              The audit report also notes the use of DCAA’s EZ-Quant Questioned Cost
      Projection model to derive the amount of questioned costs for this item. RTSC takes
      exception to this methodology and does not concur that it is appropriate to use it as the
      means of calculating questioned cots.




                                               9
Audit Report No. 6161-2004P10100201                                     SCHEDULE A-2

            The complete text of the contractor’s response to our audit findings is included as
      Appendix 2 of this report.

      e. Auditor’s      Response:

              It is DCAA responsibility to make sure that government contracts get paid what
      has been established under contract agreements but most important to assure that claimed
      costs comply with Federal regulations. We disagree with RPSC and still believe that
      RPSC does not want to recognize that its FY 2004 claim includes costs which are
      expressly unallowable based on the Federal Acquisition Regulation.

              Furthermore, we do recognize that RPSC credits back the revenue resulting from
      these product sales but not against contract costs. The contractor offsets the cost with
      revenue only on the quarterly expenditure report. The costs are not reduced by revenue
      in any final accumulation point. This practice allows the contractor to receive G&A
      burden and fee on what the FAR defines as expressly unallowable items. The practice of
      booking unallowable costs direct to the contract makes the contractor in noncompliance
      with FAR 31.205. Specifically, FAR 31.205-14 states that:

              Costs of amusement, diversions, social activities, and any directly associated
      costs such as tickets to shows or sports events, meals, lodging, rentals, transportation,
      and gratuities are unallowable. Costs made specifically unallowable under this cost
      principle are not allowable under any other cost principle. Costs of membership in
      social, dining, or country clubs or other organizations having the same purposes are also
      unallowable, regardless of whether the cost is reported as taxable income to the
      employees.

             The contractor has taken the position that the contract makes the subject costs
      expressly allowable and does not intend on removing them from the incurred cost
      submission. Therefore we find that the contractor is in noncompliance with Cost
      Accounting Standard (CAS) 405 – Accounting for Unallowable Costs.

             In addition to the CAS and FAR noncompliances, there is also no visibility to
      determine if the contractor’s revenues exceed the costs creating a profit situation or if the
      management of these costs is actually a loss position which would create an effect of
      having the government subsidize the loss on the unallowable costs.




                                               10
Audit Report No. 6161-2004P10100201                                    SCHEDULE A-2

              In summary, contracts can require a variety of provisions and supplies based on
      the basic contract agreement and further modifications. However, government contracts
      need to follow public law as defined by the Cost Accounting Standards and also the
      Federal Acquisition Regulation as agreed to in the contract per FAR Clause 52.230-2.
      The FAR 31.201-1(b) states:

             “While the total cost of a contract includes all costs properly allocable to the
      contract, the allowable costs to the Government are limited to those allocable costs
      which are allowable pursuant to Part 31 and applicable agency supplements”.

             Furthermore, the Statement on Auditing Standards (SAS) No. 39 states:

            “The auditor should project the misstatement results of the sample to the items
      from which the sample was selected”.




                                              11
Audit Report No. 6161-2004P10100201                                   SCHEDULE A-3

                       RPSC CLAIMED SUBCONTRACT COSTS
                             AND RESULTS OF AUDIT

           Element of Cost            Claimed           Unresolved          Ref.

           Subcontracts                                                     Note 1


EXPLANATORY NOTE:

1.    Subcontract Cost:

      a.     Summary of Conclusions:

             We classified              of subcontract cost as unresolved due to restrictions on
      the scope of audit imposed by the National Science Foundation (NSF).

      b.     Basis of Contractor’s Cost:

             The contractor’s claimed subcontract costs are based on actual costs incurred as
      represented in its accounting books and records.

      c.     Audit Evaluation:

             We reviewed the contractor’s schedule J from the FY 2004 incurred cost
      submission to ascertain which subcontractors had costs in excess of                     .
      According to the NSF, we did not send an assist audit request to the DCAA office with
      cognizance over Agunsa due to an investigation issue. Based on the materiality of the
      Agunsa subcontract, we qualified our audit report due to the scope of audit restriction
      from NSF.




                                              12
Audit Report No. 6161-2004P10100201                                      SCHEDULE A-4

            CONTRACTOR’S CLAIMED OTHER DIRECT COSTS (ODC)
                         AND RESULT OF AUDIT

       Cost Element                 Claimed            Questioned               Ref.

       Other Direct Cost                                                       Note 1

EXPLANATORY NOTE:

1.    Other Direct Costs

      a.     Summary of Conclusions:

             We questioned a total of                    of RPSC other direct cost for FY 2004.
      From this total               was associated with the contractor’s classification of indirect
      functions as direct contract costs,            is related to the contractor’s reclassification
      of Corporate allocations from indirect to direct contract costs and                represents
      questioned costs based on FAR 31.201-3.

              Our analysis of each indirect function that, in our opinion, should be classified as
      an indirect cost is based on the RTSC Cost Accounting Standards Disclosure Statement
      Version 11, Part 4, Item 4.1.0.

             Furthermore, the RTSC CAS Disclosure Statement,




                                      . No costs listed in the allocations that we reviewed were
      to be booked direct to a contract as an ODC.

             The following table shows the breakdown of indirect functions classified as direct
      contract costs on RTSC Polar Services books and records.




                                               13
Audit Report No. 6161-2004P10100201                           SCHEDULE A-4

 Work Breakdown                                             FY 2004 Cost
     Structure          WBS Description                to be reclassified to OH
 R-PS00-2A0100
 R-PS00-2B0100
 R-PS20-207
 R-PS30-207
 R-PS40-207
 R-PS50-207
  Sub-Total

 R-PS00-2A0014
 R-PS00-2B0014
 R-PS20-212
 R-PS30-212
 R-PS43-238E01
 R-PS43-238E06
 R-PS43-238E08
 R-PS43-238E09
 R-PS43-238E14
 R-PS53-238
  Sub-Total

 R-PS00-2A0120
 R-PS00-2B0120
 R-PS20-208
 R-PS30-208
 R-PS40-208
 R-PS50-208
  Sub-Total

 Total


             In addition, the break down of the          questioned costs related to
                                                  from indirect to direct contract costs
      are as follows:




                                             14
Audit Report No. 6161-2004P10100201                                  SCHEDULE A-4

                                                                                 Transaction
Doc. No.        Journal Entry Description WBS                      Element        Amount
110729690                       R-PS40-201E08BA
110752825                       R-PS40-201E08BA
110790063                       R-PS40-201E08BA
110594031                       R-PS40-201E08BA
110594031                       R-PS40-201E08BA
110618218                       R-PS40-201E08BA
110645318                       R-PS40-201E08BA
110674082                       R-PS40-201E08BA
110695593                       R-PS40-201E08BA


100172517                         R-PS09-1C06
100172517                         R-PS09-1C06
100172517                         R-PS09-1C06


FY 2004 Total Reclassified Allocations

              Moreover, we questioned $115 associated with a late charge fee for the unpaid
      balance to Qwest Security Screen Services. We used the EZ Quant Statistical Analysis
      Sampling Program to project $115 of other direct costs among the projects selected for
      transaction testing including project R-PS43, R-PS40, R-PS47, R-PS44, R-PS41, R-
      PS53, R-PS42, R-PS58, R-PS45 and R-PS33. The statistical sample projection resulted
      in a total of $266,745 other direct costs questioned for FY 2004. This cost is not
      reasonable and we questioned this cost based on FAR 31.201-3.

      b.     Basis of Contractor’s Cost:

              The contractor’s claimed Miscellaneous ODC’s is based on actual costs incurred
      as represented in its accounting books and records.

             Locally incurred cost/allocations were booked direct to the Polar Services
      contract as part of the General Management (PS-X0) and Polar Services Logistics
      Division (R-PS43 and PS53). These costs were booked as direct and reduced the
      overhead incurred on the contract.

            Furthermore, the Corporate allocations charged on the Polar contract are based on
      Raytheon Technical Services manual journal entries for the months of January through

                                             15
Audit Report No. 6161-2004P10100201                                     SCHEDULE A-4

      September to transfer allocation costs on the overhead pool (OH051) to other direct costs
      within project R-PS40-201E08BA.

      c.     Audit Evaluation:

             RPSC total ODCs for FY 2004 based on Schedule H is                      dollars. We
      obtained the cost detail of the ODC transactions for the identified universe and made a
      judgmental sample of the top ten project numbers with the highest ODC dollar amounts.
      From the total ODC’s we excluded all the cost related to the WBS No. R-PS43-
      237D09E08AE (totaling                  ) and all the cost related to WBS No. R-PS58-
      251H09F08AE (totaling                  ). We excluded the costs related to the WBS
      mentioned above from our sample due to the fact that these costs were reclassified to
      another WBS as part of the Christchurch New Zealand petty cash process.

              We developed a transaction testing plan and due to the large amount of
      transactions we performed a statistical sample selection of Miscellaneous ODCs within
      project: R-PS43, R-PS40, R-PS47, R-PS44, R-PS41, R-PS53, R-PS42, R-PS58, R-PS45
      and R-PS33. We evaluated the transactions source documents by using the contractor’s
      SAP Accounting System reports to verify completeness and accuracy, and determine the
      appropriateness of the charge with respect to terms of the contract and FAR/CAS.

               Furthermore, we reviewed the work breakdown structure (WBS) for the Polar
      contract and confirmed that the contractor
                . The WBS listing was then reviewed to determine the various support functions
      that, in our opinion, were an indirect function of the program. We concentrated primarily
      on the support functions                                                 based on their
      materiality.

             We have reclassified the costs associated with
                                    . Our analysis of each indirect function that, in our opinion,
      should be classified as an indirect cost based on the RTSC Cost Accounting Standards
      Disclosure Statement, Version 11, Part 4, Item No. 4.1.0 is as follows:




                                               16
Pages 17-18 have been redacted in their entirety.
Audit Report No. 6161-2004P10100201                                      SCHEDULE A-4




Contractor’s Reaction:

              RTSC disagrees that the
                                                          . As a result, RTSC does not agree with
       the reclassification of                    of ODC to an indirect cost. RTSC’s disclosed
       accounting practices at the time of contract award through today have consistently stated
       that costs required to be charged direct in a specific contract may be charged direct even
       if they are normally indirect costs.

              Furthermore, RTSC agrees that the late charge fee to Qwest Security Screen
       Services should not have been charged to the contract. RTSC requests the document
       number be provided by DCAA to RTSC so that a correcting journal entry may be
       completed to move the late charge fee to non billable. Once the journal voucher is posted
       and the fee cost is moved then RTSC considers all questioned costs to be allowable.

             The complete text of the contractor’s response to our audit findings is included as
       Appendix 2 of this report.

       d.     Auditor’s Response:

              RPSC continues to deny the nature of
       costs when it is RTSC’s common practice to accumulate these types of costs within the
       overhead pool. CAS 418-40(a) requires Polar Services to have a written statement of
       accounting policies and practices for classifying costs as direct and indirect and to apply
       those policies and practices consistently. These policies and practices are included in
       RTSC’s CAS disclosure statement applicable to FY 2004, Part 3, of Revision 11, Item
       No. 3.1.0.




                                                19
Audit Report No. 6161-2004P10100201                                   SCHEDULE A-4



              The Polar RFP required the contractor’s cost or pricing data to follow its
      disclosed cost accounting practices (CAS disclosure statement). As a result, the RFP
      (procurement) did not require any costs normally classified as indirect (e.g., locally
      incurred overhead, Raytheon allocations or RTSC allocations) to be treated as direct
      costs to the contract. The Polar RFP and its requirement for the contractor to follow
      disclosed accounting practices is consistent with the intent of the CASB when it
      published comments regarding this issue in Part II, Preambles to the Related Rules and
      Regulations Published by the Cost Accounting Standards Board, Preambles to Part 331,
      Contract Coverage, Comment No. 11, Additional requirements by agencies, states that:

              “…concern was expressed that Federal agencies might require the submission of
      cost proposals in ways inconsistent with the cost accounting practices of some or all of
      the potential offerors. The Board recognizes that this has happened in the past, but it
      notes that Board rules, regulations, and Cost Accounting Standards are to be used by
      relevant Federal agencies as well as by contractors and subcontractors, and it believes
      that henceforth requests for proposals must be fully consistent with such rules,
      regulations, and standards, although of course the Federal agency may ask for
      supplementary information to accompany proposals if this is needed to meet the agency’s
      requirements.”

              In summary, RTSC Polar Services should comply with the disclosed accounting
      practices of RTSC which is a requirement of CAS 418-40(a). RPSC initial disclosure
      statement dated April 17, 2006 has an effective date of January 1, 2005 and is therefore
      not applicable to this audit.




                                              20
Audit Report No. 6161-2004P10100201                        EXHIBIT B

   STATEMENT OF CONTRACTOR’S CLAIMED INDIRECT COSTS AND RATES
                          AND RESULTS OF AUDIT
                   Polar Services Contract No. PRSS-0000373
               Period January 1, 2004 through December 31, 2004

        Claimed                       Questioned   Audited Ref.
Overhead
Pool
Base
Rate

Fringe Benefits
Pool
Base

G&A
Pool
RPSC VAB
Rate




                                       21
Audit Report No. 6161-2004P10100201                                       SCHEDULE B-1

             CONTRACTOR’S CLAIMED OVERHEAD POOL AND BASE COSTS
                            AND RESULTS OF AUDIT

                                                      Amount             Amount Ref.
     Claimed Overhead Pool



                                                                                         Note 1
                                                                                         Note 2


     Revised Pool

     Claimed Direct Labor Base


                                                                                         Note 1


     Revised Overhead Base

EXPLANATORY NOTES:

1.      Overhead – Locally Incurred Costs/Functions

        a.      Summary of Conclusions:

                Our examination of the overhead pool for locally incurred cost resulted in an
        increase in the overhead pool of                 . We found that RPSC did not always
        classify indirect functions and associated costs in accordance with its disclosed
        accounting practices. Instead, the contractor recorded all local support (indirect)
        functions to the Polar Services contract as direct costs. As a result, we reclassified
                       of Miscellaneous ODC and                 of labor costs to the local overhead
        pool.




                                                 22
Audit Report No. 6161-2004P10100201                                    SCHEDULE B-1

      b.     Basis of Contractor’s Cost:

              The contractor’s claimed costs are based on actual costs incurred as represented in
      its accounting books and records. These costs were booked direct to the Polar Services
      contract as part of the General Management (PS-X0) and Polar Services Logistics
      Division (PS-43 and PS-53). These costs were booked as direct and reduced the
      overhead incurred on the contract.

      c.     Audit Evaluation:

             The overhead pool was reviewed based on costs incurred and submitted in the
      contractor’s incurred cost submission. The contract and the original proposal were
      reviewed to determine contract requirements for support functions during the term of the
      contract. The contractor’s disclosure statement (disclosed accounting practices) was also
      reviewed for the treatment of costs regarding the functions as described. According to
      the contract, the contractor is required to follow its disclosed accounting practices. NSF
      RFP No. OPP98001, Amendment No. 8 required the contractor’s cost or pricing data to
      follow its Cost Accounting Standards Board Disclosure Statement (Form CASB DS-1).
      We confirmed that the contractor was recording all local support functions to the Polar
      Services contract as direct costs. The WBS listing was then reviewed to determine the
      various support functions that were indirect to the program. The significant support
      functions reviewed that were indirect to the program were
                      .

              Our reclassification of labor costs to the local overhead pool is discussed in
      further detail in Schedule A-1, Note 1 of this report. Our reclassification of the
      Miscellaneous ODC is discussed in further detail in Schedule A-4, Note 1 of this report.

2.    Corporate and RTSC Allocations

      a.     Summary of Conclusions:

              Our examination of the overhead pool for allocated costs from RTSC and
      Raytheon Corporate resulted in an increase in the overhead pool by                   with a
      proportionate decrease in ODC. The contractor’s disclosed accounting practice
      accumulates and classifies these costs as indirect for subsequent allocation to cost
      objectives. As a result, we reclassified these RTSC and Corporate allocations to the
      overhead pool consistent with the contractor’s disclosed accounting practices.




                                              23
Audit Report No. 6161-2004P10100201                                     SCHEDULE B-1

      b.     Basis of Contractor’s Cost:

              The contractor’s claimed costs are based on actual costs incurred as represented in
      its accounting books and records.

      c.     Audit Evaluation:

             Polar Services demonstrated, through a prepared schedule and Annual Program
      Plan Cost Structure, the methodology used when recording allocated costs from
      Raytheon Corporate and Raytheon Technical Services (RTSC). Understanding the
      contractor’s methodology and classification of costs direct vs. indirect is important since
      the contract includes a      overhead ceiling rate.

              It was determined that Polar Services was recording allocations direct to the
      contract using the General Management WBS. The RTSC disclosure statement Revision
      9C Section 4.1.0 states that the Business Area Overhead major elements of costs include
      redistributed expenses which consists of “allocations from Raytheon Corporate, RTSC,
      and Business Unit Management for services provided that benefit the business area”.
      The incurred costs submissions for Raytheon Technical Services requires that specific
      allocations are to be made to overhead while others are to be booked within the business
      unit G&A (B&P) pools. No costs listed in the allocations reviewed were to be booked
      direct to a contract as ODC.

              Our reclassification of the RTSC and Corporate allocations to the local overhead
      pool is discussed in further detail in Schedule A-4, Note 1 of this report.

      d.     Contractor’s Reaction:

              RTSC continues to believe that inclusion of RTSC allocations as direct costs
      reflects an appropriate methodology to implement the original intent of the proposal, and
      subsequent contract, to charge normally indirect services as direct costs to the contract.
      RTSC’s disclosure statement has consistently permitted items that are normally charged
      indirect to be charged as direct costs to the benefiting contract.




                                               24
Audit Report No. 6161-2004P10100201                                    SCHEDULE B-1




                                                                                         . We
      contend that this reclassification is in accordance with our disclosed practices and is
      consistent with the parties’ original intent on the contract.

      e.     Auditor’s Response:




                                                . We reclassified to the overhead pool all flow
      down costs to the Polar business unit that the contractor elected to charge direct to the
      contract. We are not aware of any other business units that judgmentally select certain
      allocations and charge the associated costs direct to the contract.




                                              25
    Audit Report No. 6161-2004P10100201                                      SCHEDULE B-2


                                         Fiscal Year 2004 Fringe

                       Claimed                                                 Labor
Union     Claimed          Fringe             Audited       Labor Base          Base          Labor Base
Code       Fringe       Questioned            Fringe         Claimed         Questioned        Audited

RTQ                      $           0                                       $          0
RTT
RTJ
R01
Total                    $           0                                       $          0

    EXPLANATORY NOTE:

    1.    Fringe Expense:

          a.     Summary of Conclusions:

                  The FY 2004 fringe rates are being audited under Assignment No.
          2006T10160201. Therefore, we were not able to compare the total burdens to the applied
          fringe billed through FY 2004.

          b.     Basis of Contractor’s Cost:

                  The contractor applies RTSC claimed fringe rates to the labor bases that the Polar
          program participates in. Participation is based on the various union codes applicable to
          the labor incurred.

          c.     Audit Evaluation:

                  We determined the applicable labor bases for each of the union codes that RPSC
          participates in. Once the FY 2004 RTSC incurred cost audit (under Assignment No.
          6161-2004T10100001) is completed we will issue a supplemental report to reflect the
          application of the audited RTSC fringe rates to the Polar Services fringe bases.




                                                   26
Audit Report No. 6161-2004P10100201                                        SCHEDULE B-3

                CLAIMED AND AUDITED G&A POOL, BASES AND RATE
                             AND RESULT OF AUDIT
                                                     Audited
                       Claimed Costs   Questioned    Costs FY
     G&A                  FY 2004     Costs FY 2004   2004                                  Note

     Total Pool                                                                             Note 1
     Polar VAB
     Polar G&A Rate

EXPLANATORY NOTE

1.      G&A Pool Expenses

         a.    Summary of Conclusions:

               We take no exceptions to RPSC allocated G&A pool costs for FY 2004.

         b.     Basis of Contractor’s Cost:

              The contractor’s costs for G&A were based primarily on allocated costs from
         RTSC. No locally incurred G&A expenses were identified on the Polar program.

                RPSC G&A expense represent residual costs allocated based on a value added
         base. The main costs categories included as segment G&A are RTSC general
         management, restructuring, and corporate allocations including legal and state income
         tax.

         c.     Audit Evaluation:

                We reviewed RPSC G&A Summary Report on the contractor’s SAP Accounting
        System and found no locally incurred G&A expenses. Moreover, RTSC G&A allocated
        costs to Raytheon Polar Services Company are being audited under assignment no.
        6161-2004T10100001. Part of this audit consisted in reconciling the expenses
        representing allocations from the Raytheon Corporate office and the amounts included in
        the DCAA Raytheon Corporate office’s audit report. The FY 2004 RTSC incurred cost
        audit is still in process therefore, we will issue a supplemental audit report to incorporate
        any findings from the RTSC Incurred Cost audit report applicable to Raytheon Polar.



                                                 27
Audit Report No. 6161-2004P10100201                                          EXHIBIT C

            OVERHEAD COSTS IN EXCESS OF CONTRACT RATE CEILINGS
                       Polar Services Contract No. PRSS-0000373
                   Period January 1, 2004 through December 31, 2004




*No adjustment to the G&A rate is recommended at this time. The claimed rate is
equivalent to the audited rate. Final adjustments for fringe and the related impact on the
G&A rate will be issued in a supplemental report.

EXPLANATORY NOTES:

1.     Overhead and G&A Costs in Excess of Ceiling – Without Audit Adjustments

       a.      Summary of Conclusions:

               We computed the overhead and G&A costs in excess of the ceiling rates. These
       amounts represent the cost in excess of the ceiling rates based on the contractor’s claimed
       indirect rates and allocation bases, i.e., without any audit adjustments.




                                               28
Audit Report No. 6161-2004P10100201                                         EXHIBIT C

      b.     Basis of Contractor’s Cost:

             The contractor’s claimed costs and indirect rates are based on its certified
      incurred cost submission.

      c. Audit      Evaluation:

              We computed the overhead and G&A costs in excess of the ceiling rates but
      without including any audit adjustments. These amounts represent the costs in excess of
      the ceiling rates based on the contractor’s claimed indirect rates and allocation bases.
      Any comparison to billed costs should be performed after final negotiations and
      resolution with the contractor.

2.    Overhead Costs in Excess of Ceiling – With Audit Adjustments

      a.     Summary of Conclusions:

             We computed the overhead costs in excess of the ceiling rates. These amounts
      represent the costs in excess of the ceiling rates that includes the audit adjustments
      discussed in this report.

      b.     Basis of Contractor’s Cost:

             The contractor’s claimed costs and indirect rates are based on its certified
      incurred cost submission.

      c. Audit      Evaluation:

              We computed the overhead costs in excess of the ceiling rates that reflect our
      audit adjustments. These amounts represent the costs in excess of the ceiling rates based
      on incorporating the audit adjustments made to the contractor’s indirect cost pools and
      allocation bases. Any comparison to billed costs should be performed after final
      negotiations and resolution with the contractor.

      d.     Contractor’s Reaction:

             RTSC agrees with DCAA that these costs are not allowable on the contract.
      However, according to the contractor the costs are appropriately allocable to the contract
      and therefore need to be included in the incurred cost claim even though there is no


                                              29
Audit Report No. 6161-2004P10100201                                         EXHIBIT C

      intention in recovering these costs from the Polar customer. RTSC stated that it has not
      included any of these over ceiling costs in the billings to date and has no intention of
      billing them in the future.

      e.     Auditor’s Response:

              We disagree that the contractor has not recovered the cost in excess of the ceiling
      rates. The contractor has billed and recovered a portion of the over ceiling amounts by
      reclassifying indirect costs as direct                                              . We
      reclassified these direct costs
                             to overhead and computed the amounts that exceeded the contract’s
      ceiling rates.




                                              30
Audit Report No. 6161-2004P10100201

                    CONTRACTOR ORGANIZATION AND SYSTEMS

I.     Organization

       RTSC’s headquarters is located in Reston, VA.




       RTSC has a multi-disciplined workforce of approximately 10,000 employees. RTSC
provides technical, scientific, and professional services to defense, federal, and commercial
customers on all seven continents, including support for operations in space, at sea, and on land.
RTSC had annual sales of approximately                      in FY 2005, of which approximately
        are primarily government prime contracts and subcontracts. Of the government
contracts and subcontracts, approximately                       are flexibly priced (i.e. cost type
and time and materials (T&M) type).




                                                31
Pages 32 through 33 have been redacted in their entirety
Audit Report No. 6161-2004P10100201

       In Audit Report No. 6161-2006T11070301 dated September 5, 2006, DCAA examined
the Control Environment and Overall Accounting System and the related internal control policies
and procedures. Based on our examination, we concluded that the Control Environment and the
Overall Accounting System and related internal control policies and procedures are adequate.




                                                               .




        DCAA reviewed RTSC’s Budget and Planning System and related internal control
policies and procedures under Audit Assignment No. 6161-2006T11020301 dated
September 8, 2006. Based on its review DCAA determined that the RTSC’s Budget and
Planning system and the related internal control policies and procedures are adequate.




                                              34
Page 35 has been redacted in its entirety
Audit Report No. 6161-2004P10100201




V.    Indirect and ODC System

       DCAA examined RTSC’s Indirect and Other Direct Cost System of internal controls
under Audit Assignment No. 6161-2005T14980301, with a reported issued on
September 28, 2005. Based on its examination, DCAA determined that the RTSC Indirect/Other
Direct Cost System is inadequate in part.

                                            36
Audit Report No. 6161-2004P10100201




       Furthermore, in Audit Report No. 6161-2004T14980202, dated December 15, 2005,
DCAA evaluated the Indirect and ODC Internal Controls for RTSC Polar Services and
determined that the system is inadequate. A brief summary of the deficiencies are as follows:

       •   The RTSC segment disclosure statement which defines the contractor’s current
           accounting practice regarding indirect and ODC costs, excludes Raytheon Polar
           Services as of January 1, 2005. To date, a disclosure statement for Raytheon Polar
           Services has not been submitted to the Government.
       •   Policies and procedures regarding the allowability of selected costs are in
           noncompliance with the Federal Acquisition Regulation (FAR) Part 31


                                               37
Audit Report No. 6161-2004P10100201

           Specifically, RPSC policies and procedures address certain costs as allowable which,
           in our opinion, are expressly unallowable based on applicable FAR provisions.
       •   Costs that are made expressly unallowable based on the FAR or RPSC/RTSC policies
           and procedures were charged as allowable, indicating that the contractor is not
           adequately complying with established controls to properly classify and record
           unallowable costs. The deficiencies represent a noncompliance with CAS 405-40(a),
           Accounting for Unallowable Costs, FAR Part 31, and established company policies
           and procedures.
       •   The contractor lacks policies and procedures regarding the training of employees in
           the Indirect/ODC system.
       •   The contractor has inadequate policies and procedures regarding periodic,
           independent management reviews and its associated compliance.
       •   We identified inadequacies that affect the allocability of costs indicating that the
           contractor lacks adequate controls to ensure the consistent classification of costs
           based on CAS 418, Allocation of Direct and Indirect Cost [CAS 418-40(a)].

        DCAA will perform an RTSC Polar Services Indirect and ODC Internal Control follow-
up review once the contractor has had sufficient time to implement adequate controls to correct
the deficiencies and comply with our recommendations.




                                               38
Pages 39 through 41 have been redacted in their entirety
Audit Report No. 6161-2004P10100201




 CASB            9903.202-1: Audit Report No. 6161-2005T19200303, dated
November 18, 2005, indicates that RTSC disclosed and established cost accounting practices are
in noncompliance with CASB 9903.202-1, Disclosure Statement General Requirements.




                                              42
Audit Report No. 6161-2004P10100201

Specifically, effective January 1, 2005, RTSC Raytheon Polar Services Company (RPSC)
business unit does not have a separate disclosure statement to describe its unique cost accounting
practices used to account for direct and indirect costs. On April 5, 2006, the DACO issued an
initial finding of noncompliance on this issue. We are awaiting RTSC’s response to the finding.

 CAS               418: Audit Report No. 6161-2005T19200001, dated June 23, 2005, indicates
that the actual cost accounting practices of one of RTSC’s business units, Raytheon Polar
Services Company (RPSC), are in noncompliance with CAS 418 and with disclosed cost
accounting practices. Specifically, during the period from January 1, 2000 through
December 31, 2002, costs that were disclosed as indirect were recorded and charged direct to the
Polar Services contract. Recording and charging these costs direct to the contract results in 100
percent recovery through contract billings to the government (i.e., National Science Foundation).
On September 28, 2005, the DACO issued an initial finding of noncompliance on this issue. The
contractor’s December 5, 2005 response was considered a non-response by the DACO.
Therefore, on January 17, 2006, the DACO issued a request for response to the initial finding of
noncompliance. The contractor’s January 24, 2006 response is currently being evaluated by the
DACO.




                                               43
Pages 44 through 45 have been redacted in their entirety
Audit Report No. 6161-2004P10100201

                                      DCAA PERSONNEL

Telephone                                                               No.
Primary contact(s) regarding this audit:




Other contact(s) regarding this audit report:

                      , Branch Manager

                                                             FAX No.
                                                             (

                                                             E-mail Address


General information on audit matters is available at http://www.dcaa.mil/.

AUDIT REPORT AUTHORIZED BY:


                                                           /Signed/


                                                           Branch Manager
                                                           DCAA Herndon Branch Office




                                                46
Audit Report No. 6161-2004P10100201

                AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION

 E-m                                                ail Address
National Science Foundation                     Kstagner@nsf.gov
ATTN: Ms Deborah Cureton,
Associate Inspector General for Audit
4201 Wilson Boulevard
Arlington, VA 22230

Raytheon Polar Services                         (Copy furnished thru ACO)
Raytheon Technical Services Company
12160 Sunrise Valley Drive
Reston, VA 20191




                                        47
Audit Report No. 6161-2004P10100201




                            APPENDIX 1

                           Certificate of Final Indirect Costs




                                         48
Audit Report No. 6161-2004P10100201




                             APPENDIX 2

   RPSC Letter Response to the DCAA Draft Audit Report No. 6161-2004P10100201, dated
                                  September 13, 2006




                                     C:\Documents and
                                    Settings\aleimer\Desk




                                            50
